Certificate of Compliance
No. 19-360
In The

Supreme Court of the United States
Frances K. Konieczko,
Lawrence W. Konieczko,
Laurie F. Konieczko,
Petitioners,
v,

Adventist Health System/Sunbelt, Inc.,
sponsored by the Seventh-day Adventist Church,
d/b/a AdventHealth Altamonte Springs, formerly Florida Hospital Altamonte,
and d/b/a AdventHealth Orlando, formerly Florida Hospital Orlando,
Respondents.

As required by Supreme Court Rule 33.1(h), I hereby certify that the
Petition for Rehearing in support of the Petition for a Writ of Certiorari
words, according to the Microsoft Word Count feature
contains 74-S
utilized, excluding the parts of the Petition that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

fC K*AisicJ$io

Date: December \ 7,2019

Frances K. Konieczko, Plaintiff/Petitioner
PO Box 540542, Orlando, FL 32854

Date: December 17,2019
Lawrence W. Konieczko, P.E., Pfaintiff/Petitioner
PO Box 540542, Orlando, FL 32854
Date: December \7,2019

ajuLnla,
Laurie F. Konieczko, Plaintiff/Petitioner
PO Box 540542, Orlando, FL 32854

